No. 20-853

In the Supreme Court of the United States
ANDREI IANCU, UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR, UNITED STATES
PATENT AND TRADEMARK OFFICE, PETITIONER

v.
FALL LINE PATENTS, LLC, et al.

CERTIFICATE OF COMPLIANCE
I, Nicole A. Saharsky, counsel for Respondent HemoSonics LLC, hereby certify
that, according to the word-count tool in Microsoft Word, the response in support of
the petition for a writ of certiorari consists of 618 words, including footnotes and
excluding the sections enumerated by Rule 33.1(d). The response therefore complies
with Rule 33.1(g).

/s/ Nicole A. Saharsky
Nicole A. Saharsky
Mayer Brown LLP
1999 K Street NW
Washington, DC 20006
(202) 263-3000
nsaharsky@mayerbrown.com

